                      SPECTO
                 IN            R
             F                     G
         O                             E
     E




                                       N
     C




                                           E
FI




                                           RA
OF




                                               L
                                                   OFFICE OF INSPECTOR GENERAL
                                                        EXPORT-IMPORT BANK
                                                         of the UNITED STATES




   REPORT ON THE EXTERNAL
       QUALITY CONTROL
        REVIEW OF THE
     EXPORT-IMPORT BANK
          OF THE U.S.,
 OFFICE OF INSPECTOR GENERAL,
       OFFICE OF AUDITS
                                                                FEBRUARY 7, 2012
To:          Fred	P.	Hochberg	
             President	and	Chairman

From:	       Osvaldo	L.	Gratacós		
             Inspector	General                 J2.


Subject:	    Export‐Import	Bank	of	the	United	States,	Office	of		Inspector	General,	
             Office	of	Audits,	External	Peer	Review	Report

Date:	       February	7, 2012	


I	am	pleased	to	provide	you	with	a	copy	of	the	recently	completed	external	peer	
review	report	on	the	Office	of	Audits	of	the	Export‐Import	Bank	of	the	United	States	
(Ex‐Im),	Office	of	Inspector	General	(OIG).

The	National	Endowment	for	the	Arts	(NEA)	OIG	conducted	the	peer	review	in	
accordance	with	Government	Auditing	Standards	and	Council	of	the	Inspectors	
General	on	Integrity	and	Efficiency	guidelines.		NEA	OIG	found	that	the system	of	
quality	control	for	the	Ex‐Im	OIG’s	Office	of	Audits	has	been	suitably	designed	and	
complied	with	to	provide	responsible	assurance	of	performing	and	reporting	in	
conformity	with	applicable	professional	standards	in	all	material	respects.		
Therefore,	the	NEA	OIG issued	the	rating	of	“PASS”	on	our	system	of	audit	quality	
control.	

Please	contact	me	if	you	have	any	questions	about	this	report.	


Attachment	


cc:	     Audit	Committee	




                   811	Vermont	Avenue,	NW			Washington,	D.C.		20571

      NATIONAL ENDOWMENT
      NATIONAL ENDOWMENT FOR
                         FOR THE
                             THE ARTS
                                 ARTS 


         OFF'ICEOF
         OFFICE OF INSPECTOR
                   INSPECTORGENERAL
                             GENERAL




             AVV

               AHTUMNKS,
               ARTWORKS.,

                  ens...  CN




REPORT ON THE EXTERNAL
REPORT                 QUALITY CONTROL REVIEW
              EXTERNAL QUALITY         REVIEW

  OF THE EXPORT.IMPORT
         EXPORT-IMPORT BANK
                       BANK OF UNITED STATES
                                      STATES 


    INSPECTOR
    INSPECTOR GENERAL AUDIT
                      AUDIT ORGANIZATION
                            ORGANIZATION 




               Report
               Report No.
                      No. QCR-12-01
                          QCR-12-01 




                 February
                 February 2,2012
                          2, 2012

                                        SystemReview
                                        System ReviewReport
                                                     Report



                                            February
                                            February 2,2012
                                                     2, 2012



    OsvaldoGratacos
Mr. Osvaldo  Grataccis
InspectorGeneral
Inspector General
Export-Import Bank
Export-Import Bank ofthe
                   of the United
                          United States
                                 States
811 Vermont
811 VermontAvenue,
             Avenue,NW
Washington,
Washington , DC


Dear Mr. Gratacos
Dear     Grataccis.
                  ,

We have
We  have reviewed
           reviewed thethe system
                           systemof quality control
                                              control for the
                                                          the audit
                                                              audit organization
                                                                    organizationof the
                                                                                     the Export  -Import
                                                                                          Export-Import
         the United States
Bank of the                          of InspectorGeneral
                        StatesOffice ofInspector             (EX-IM OIG) in effect for the
                                                    General(EX-1M                          the year
                                                                                               year ended
                                                                                                    ended
December31
December     3I,2010.
                , 2010. A system      quality control
                            systemof quality   control encompasses
                                                       encompasses    the EX-IM ~IG
                                                                      the EX-1M   OIG's' s organizational
                                                                                           organizational
structureand
structure  and the   policies adopted
                the policies  adoptedand    proceduresestablished
                                      and procedures    establishedto provide
                                                                       provide it with reasonable
                                                                                        reasonable
assuranceof
assurance   of conforming
                conforming to Government
                                GovernmentA     uditing Standards
                                              Auditing  Standards. . The
                                                                     The elements
                                                                          elementsofof quality control
                                                                                                control are
                                                                                                        are
describedin the
described      the Government
                    GovernmentAuditing Standards.
                                            Standards. The
                                                         The EX-1M
                                                              EX-IM OIG is responsible
                                                                              responsiblefor designing
                                                                                                designing a
systemof
system  of quality control
                     control and
                              and complying with it to provide
                                                         provide EX-1M
                                                                 EX-IM OIG with reasonable
                                                                                     reasonable
assuranceof
assurance   of performing and    reporting in conformity with applicable
                             and reporting                                   professional standards
                                                                 applicableprofessional     standardsin all
material respects.
material  respects. Our responsibility
                           responsibility is to express
                                                express an
                                                         an opinion on the  design of
                                                                        the design of the
                                                                                      the system
                                                                                            systemofof
        control and
quality control    and the EX-IM ~IG's
                       the EX-1M           compliance therewith
                                   OIG's compliance               based on our review.
                                                        therewith based          review.

Our review was
             was conducted
                  conductedin accordance
                                 accordance with Government       Auditing Standards
                                                   GovernmentAuditing        Standardsand     guidelines
                                                                                          andguidelines
established
established by the Council ofofthe
                                 the Inspectors  General on Integrity and
                                     InspectorsGeneral                   and Efficiency (CIGIE).
During our review,
             review, we interviewed    EX-IM OIG personnel
                         interviewed EX-1M           personnel and
                                                                 and obtained
                                                                       obtained an
                                                                                 an understanding   ofthe
                                                                                     understanding of  the
nature of the
nature of the EX-IM
               EX-1M OIG's
                       OIG' s audit organization,
                                     organization, and
                                                   and the
                                                         the design
                                                             design ofof the EX-IM    ~IG's system
                                                                             EX-1M OIG's     system of
                                                                                                     of
quality control sufficient to assess
                               assess the
                                      the risks implicit
                                                implicit in its audit function.
                                                                       function. Based
                                                                                  Based on our
assessments,
assessments, we selected
                  selected audit engagements
                                   engagements and
                                                 and administrative
                                                      administrative files to test
                                                                                test for conformity with
                                                                                                     with
professional
professional standards
              standards and
                         and compliance
                             compliance with
                                           with the EX-IM     ~IG ' s system
                                                    EX-1M OIG's       system ofof quality control.
                                                                                          control. The
audit engagements
      engagements selected
                     selected represented
                               represented a reasonable
                                              reasonable cross-section
                                                           cross-section ofof the EX-IM    ~IG's audit
                                                                                  EX-1M OIG's
organization,
organization, with
               with emphasis
                    emphasis on higher-risk engagements.
                                                engagements. Prior to concluding the review, we
reassessed
reassessed the adequacy
                adequacy ofof the scope  of the peer
                                   scope of     peer review procedures
                                                              procedures andand met with
                                                                                      with EX-IM
                                                                                           EX-1M OIG
management
management to discuss
                 discuss the results
                              results of
                                      of our review. We believe                procedures we performed
                                                            believe that the procedures        performed
provide a reasonable
           reasonable basis
                       basis for our opinion.
   performing our
In performing   our review,
                    review, we
                             we obtained
                                 obtainedanan understanding
                                               understandingof thethe system
                                                                      systemof quality control
                                                                                         control for the
                                                                                                     the
EX -1M ~IG's audit organization.
EX-IM    OIG's  audit organization.In addition,
                                         addition,wewe tested
                                                        testedcompliance
                                                               compliancewith thethe EX -1M ~IG's
                                                                                     EX-IM   OIG's
quality control policies and
        control policies      proceduresto
                          and procedures   to the
                                              the extent
                                                   extentwewe considered
                                                              consideredappropriate.
                                                                          appropriate. These
                                                                                        Thesetests
                                                                                              tests
covered  the application
covered the application of the
                             the EX -1M OIG's
                                 EX-IM            policies
                                          OIG's policies andandprocedures
                                                                proceduresonon selected
                                                                               selectedengagements.
                                                                                        engagements.
Our review was
Our          was based
                 basedon on selected
                            selectedtests;
                                     tests;therefore
                                            therefore,, it would not
                                                                  not necessarily
                                                                      necessarilydetect
                                                                                  detectall weaknesses
                                                                                            weaknesses
in the
   the system
       systemof  quality  control
                          control or all instances
                                         instancesof noncompliance
                                                       noncompliancewith it.

There are
There  are inherent
           inherentlimitations in the effectivenessof any
                                  the effectiveness     any system
                                                            systemof quality control,
                                                                               control, and
                                                                                         and therefore
                                                                                             therefore
noncompliancewith the
noncompliance              systemof quality control
                      the system             control may
                                                     may occur
                                                          occur and
                                                                 and not be
                                                                         be detected.
                                                                             detected. Projection
                                                                                       Projection of
any evaluation
any  evaluationof aa system
                     systemof quality control
                                       control to future
                                                  future periods
                                                         periods is
                                                                  is subject
                                                                     subjectto the
                                                                               the risk that
                                                                                        that the
                                                                                             the
systemof
system  of quality control
                   control may
                            may become
                                becomeinadequate
                                         inadequatebecause
                                                     becauseofof changes
                                                                 changesin conditions,
                                                                             conditions, or because
                                                                                             because
the degree
the degreeof compliance
              compliancewith thethe policies
                                    policies or procedures
                                                proceduresmay
                                                            may deteriorate  .
                                                                  deteriorate.

EnclosureA to this
Enclosure      this report
                    report identifies
                           identifies the
                                      the EX-1M
                                          EX-IM OIG office that
                                                           that we
                                                                we visited and
                                                                           and the
                                                                               the engagements
                                                                                   engagements
that we
that    reviewed..
     we reviewed

In our opinion
        opinion,, the  systemof
                  the system   of quality control
                                          control for the
                                                       the audit
                                                           audit organization
                                                                  organizationofofthe
                                                                                   the EX-1M
                                                                                       EX-IM OIG in
effect
effect for the  year
           the year ended
                      endedDecember
                              December31   , 2010, has
                                         31,2010,  hasbeen
                                                         beensuitably
                                                                suitablydesigned
                                                                         designedand
                                                                                  and complied
                                                                                        compliedwith to
provide the
provide  the EX-1M
              EX-IM OIG with reasonable       assuranceof
                                  reasonableassurance      of performing and
                                                                           and reporting
                                                                               reporting in conformity
with applicable    professionalstandards
     applicableprofessional      standardsin all material
                                                  material respects.
                                                              respects. Federal
                                                                        Federalaudit
                                                                                 audit organizations
                                                                                       organizationscan
                                                                                                     can
receive aa rating
receive            of pass;
           rating of  pass,· pass
                             pass with deficiencies
                                       deficiencies,, or/ail.
                                                      or fail. The
                                                                The EX  -1M OIG has
                                                                     EX-IM        has received    peer
                                                                                       receivedaa peer
review rating ofof pass.
                   pass. We noted,
                               noted, however,
                                      however, a condition that that warranted
                                                                     warrantedEX   -1M OIG attention
                                                                               EX-IM         attention
though
thoughit did not
               not impact
                    impact our opinion.
                                 opinion. This
                                           This matter
                                                matteris discussed
                                                            discussedin Enclosure
                                                                          EnclosureB .

In addition
   addition to reviewing its system
                              systemofof quality control
                                                 control to ensure
                                                            ensureadherence
                                                                    adherencewith Government
                                                                                     Government
Auditing Standards
          Standards, , we applied certain
                          applied certain limited  procedures
                                                   procedures  in  accordance
                                                                   accordance  with guidance
                                                                                    guidance
established
establishedby the
                the CIGIE related
                           relatedto the
                                      the EX       ~IG ' s monitoring
                                              -1M OIG's
                                          EX-IM            monitoring of
                                                                       of engagements
                                                                          engagements    pperformed
                                                                                           erformed by
Independent
IndependentPublic Accountants
                      Accountants(IP   A) under
                                   (IPA)  under contract
                                                 contract where
                                                           where the
                                                                  the IP
                                                                      IPAA served
                                                                           servedas
                                                                                  as the
                                                                                     the principal
auditor.. It should
auditor      should be noted that monitoring of
                    be noted                   of engagements    performed by IP
                                                  engagementsperformed            As is not an
                                                                                IPAs          an audit
                                                                                                 audit
and
and therefore
    therefore is not subject
                      subjectto the requirementsof
                                the requirements   of Government
                                                      GovernmentAuditing Standards
                                                                              Standards.  . The  pu{pose
                                                                                            The purpose
of              procedureswas
of our limited procedures   was to determine
                                   determinewhether
                                               whether the
                                                        the EX  -1M OIG had
                                                            EX-IM         had controls
                                                                               controls to ensure
                                                                                            ensureIPAs
performed
performed contracted    work in accordance
             contractedwork     accordancewith professional
                                                   professional standards.
                                                                 standards. However,
                                                                             However, our objective
                                                                                             objective
was
was not to express
             expressan
                     an opinion and
                                and accordingly
                                     accordingly,, we do      express an
                                                       do not express  an opinion
                                                                          opinion,, on the
                                                                                       the EX   -1M
                                                                                            EX-IM
OIG's monitoring
       monitoring ofof work performed       IPAs..
                             performed by IPAs




 onie Jones
Inspector
Inspector General
          General


Enclosures
Enclosures
                                                                                             EnclosureA
                                                                                             Enclosure




                                    AND METHODOLOGY
                              SCOPEAND
                              SCOPE


Scopeand
Scope and Methodology
          Methodology

We tested
We   testedcompliance
            compliancew   with
                            ith the EX-IM ~IG
                                theEX-1M    OIG's' s system     qualitycontrol
                                                     systemof quality   controltto theextent
                                                                                 o the  extentwe
                                                                                               we
considered
considered    aappropriate.
                ppropriate. TThese  testsincluded
                              hese tests includedaa review
                                                      reviewof the oneauditreport
                                                              ofthe one  audit report   performed
                                                                                        performed  and
                                                                                                   and
issuedby
issued  by EX-1M
           EX-IM OIG OIG during
                           duringthe              periodended
                                       l2-monthperiod
                                  the 12-month            endedDecember
                                                                 December    31,2010.
                                                                            31,           Therewere
                                                                                 2010. There     wereno
                                                                                                      no
attestation
attestation rreports  issuedduring
               eports issued duringthat   period.
                                     thatperiod . WeWe also
                                                        also reviewed
                                                             reviewed  the internal
                                                                       the internal  quality
                                                                                     q uality control
                                                                                              control
reviews   performedby
reviewsperformed       by the
                          theEX-1M
                              EX-IM OIG.
                                       OIG.

   addition,
In addition   we reviewed
            , we reviewedthetheE   X-IM ~IG
                                  EX-1M   OIG's' s monitoring
                                                   monitoringof engagements
                                                                 engagements  performedby
                                                                              performed       IPAs
                                                                                           by IPAs
duringthe
during the 12-month
            12-month  pperiod   endedDecember
                        eriod ended    December     31,2010.
                                                    31         Duringthe
                                                       , 2010. During     period,
                                                                       theperiod   theE
                                                                                 , the EX-1M
                                                                                         X-IM OIG
                                                                                               OIG
contractedffor
contracted      the audit
             or the           its agency
                    auditooff its agency's   FiscalYear
                                         ' s Fiscal Year2010
                                                          2010financial
                                                               financialstatements
                                                                         statements  thatwere
                                                                                     that wereto
                                                                                               to be
                                                                                                  be
performedin accordance
performed      accordance   with
                            w      Government
                               ith Government     AuditingStandard
                                                  Auditing  Standards.
                                                                    s.

Our work
Our work was performedat
         wasperformed atthe  Washington,
                         the Washington   DC office
                                        , DC office of the EX-IM OIG.
                                                       theEX-1M  OIG.



                          ReviewedAudit Performed
                          Reviewed      Performedby the
                                                    the EX-1M
                                                        EX-IM OIG

       Report Number                   Report Date
                                       Report Date                          Report
                                                                            ReportTitle

        OIG-AR-IO-04
        OIG-AR-10-04                     June2010
                                         June 2010         Sponsored Transactional
                                                           Sponsored Transactional Travel
                                                                                   Travel


         ReviewedMonitoring
         Reviewed Monitoring Files
                             Filesof
                                   of the EX-IM OIG for Contracted
                                      the EX-1M                    Engagements
                                                        ContractedEngagements

       Report Number
       Report Number                   Report Date                          Report Title
                                                                            Report

        OIG-AR-I1-01
        OIG-AR-II-OI                 November 2010
                                     November 2010                             of the United States
                                                           Export-Import Bank of             States
                                                           Fiscal Year
                                                           Fiscal Year 2010
                                                                       2010 Financial
                                                                            Financial Statements
                                                                                      Statements
                                                                                                Enclosure
                                                                                                EnclosureBB



                                    GeneralComment
                                    General Comment


Wenoted
We  notedEX-1M
          EX-IM 01G
                  OIG did nothave
                      did not haveaa system
                                     systemfor
                                            for an
                                                anannual
                                                   annualaanalysis
                                                           nalysis and
                                                                   andsummary
                                                                       summaryof
resultsof monitoring
results              procedures.
          monitoringprocedures.

        GAGASrecommend
        GAGAS    recommend    tthat
                                hat " [t]he auditorganization
                                      [t]he audit organization sshould analyzeaand
                                                                 hould analyze  nd summarize
                                                                                   summarize  tthe
                                                                                                he results
                                                                                                   resultsof its
                                                                                                             its
        monitoring   procedures
        monitoringprocedures     at least
                                 at leastaannually, with
                                           nnually, w    identificationof any
                                                     ith identification    anysystemic
                                                                               systemicissues
                                                                                       issuesneeding
                                                                                               needing
        corrective
        corrective aaction (GAGAS3.54)
                     ction (GAGAS     3.54)."
                                            ."

OnAugust
On  August55,,2011,   EX-IM 01G
               2011 , EX-1M     OIG implemented
                                     implemented    PolicyNo.
                                                    Policy  No. 203
                                                                  203, InternalQ
                                                                     , Internal            Control
                                                                                   uality Control
                                                                                  Quality
whichrequires
which  requiresananannual
                    annualrreview    be
                              eview be   performed
                                         performed  to assess
                                                    to assess  compliancewith applicable
                                                               c ompliance    with applicable
professionalstandards
professional  standards   aand qualitycontrol
                            nd quality          policiesand
                                        controlpolicies       procedures
                                                         andprocedures     ffor
                                                                             o r Generally
                                                                                 Generally
AcceptedGovernment
Accepted   Government      AuditingStandards
                           Auditing  Standards   (GAGAS)
                                                 (GAGAS)    audits.On August55,,2011,
                                                            audits.  On   August      2011 , EX-1M
                                                                                             EX-IM
OIG also
01G  alsocompleted
          completedaa summary
                          summarymemorandum
                                    memorandum      to the
                                                    to thefile
                                                           file on
                                                                on the  internalqquality
                                                                   the internal           control
                                                                                   uality control
system.As
system.  As aa result
               resultooff the
                          the actions
                              actionstaken
                                       taken,  we determined
                                             , we determinedtthat   no recommendation
                                                                hat no  recommendation      is
                                                                                            is
necessary.
necessary.
                                                                                            n c f o s u r e CC
                                                                                          EEnclosure




     OfficeofofInspector
     Office     InspectorGeneral
                         General         Export-Import
Bank
                                         Expon-Import    Bank
                                         ofihe
                                         of the Unitbd

                                                United States
                                                        States

February 2,2012
February 2,2012

Tonie Jones
Tonie  Jones
Inspector General
InspectorGeneral
         Endowment for
National Endowment   for the
                         the Arts
                             Arts
 1100 Pennsylvania
I100 Pennsylvania  Ave.,
                   Ave.,  N.W.
                         N.W.
Washington, DC
Washington,  DC 20506
                 20506


SUBJECT: Report
SUBJECT: Report on the Extemal
                        External Quality
                                  Quality Control Review of
                                          Control Review of the Export-Import Bank
                                                            the Export-Import
         of the
         of the United states,
                       States, office
                               Office of           General, OfFtce
                                         Inspector General,
                                      of Inspector                 of Audits
                                                            Office of


Dear Ms.
Dear Ms. Jones,
         Jones,

Thank you
Thank   you for providing
                providing the
                           the draft report on the
                               draftreport          extemalquality
                                                the external                 review of the
                                                                     control review
                                                             quality control           the
Export
Export Import   bank of the
        Import Bank      the U.S.,
                             U.S., Office
                                   Office ofInspector    General,O
                                           of InspectorGeneral,   Office
                                                                    ffice of         conducted
                                                                             Audits, conducted
                                                                          of Audits,
in accordance
in accordance   with Government
                     Government    A uditing
                                   Auditing  Standards
                                             Standards   and
                                                         and Council
                                                             Council  of the
                                                                         the Inspector
                                                                             Inspector General
                                                                                       General
on
on Integrity
    Integrity and
              andEfficiency
                  Efficiency guidelines.
                             guidelines.

I am
  amvery
      very pleased
            pleasedwith the    ratingof "PASS"
                          the rating                  attainedby
                                           "PASS" attained         thethis
                                                                by the      office and
                                                                       this office      the opinion
                                                                                    andthe   opinion
that our system
that our syite*  of quality  control   has  been  suitably
                    quality control hasbeensuitably          designed
                                                             designed  and
                                                                       and   complied
                                                                            complied   with   to
                                                                                              to
provide
provideresponsible
         risponsibleassurance
                      assurance        performingand
                                  ooff performing          reportingin conformity
                                                    andreporting                            applicable
                                                                        conformitywith applicable
professional  standards
professionalstandards   i
                        inn all
                            all material
                                material   r espects.
                                            respects.  I
                                                       I  truly
                                                         truly  appreciate
                                                                appreciate  all
                                                                            all your
                                                                                your efforts
                                                                                     efforts  on this
                                                                                              on this
matter and  the professionalism    with
matterandthe professionalismwith which    which   your
                                                  your   staff
                                                         staff conducted
                                                               conducted   this
                                                                          this   review.
                                                                                review.  II look
                                                                                            look
fbrwardto
forward  to receiving
            receivingyour
                       your [mal
                             final report.
                                    report.

Sincerely,

                                           t




Osvaldo 1. Gratac6s
Inspector General
Export-Import
 Export-ImportBank
               Bankof
                    ofthe U.S.
                       theU.S.




              811
               8 1 1 Vermont
                     V e r m o n t Avenue,
                                   A v e n u e , N.W.
                                                 N . W . Washington,            D . C . 20571
                                                         S f a s h i n g t o n ,D.C.    20571
Office of Inspector General
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, DC 20571
202-565-3908
www.exim.gov/oig
